No. 20-1218

In the Supreme Court of the United States
DEMETRIUS WILLIAM EDWARDS AND BRYANT ROYSTER, PETITIONERS
V.

SHERRY BURT, WARDEN AND KEVIN LINDSEY, WARDEN
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
The undersigned certifies that on June 2, 2021, she e-served the Brief in Opposition along with a Certificate of Compliance by e-filing and e-mailing same to the
email address provided:
•

Alan Evan Schoenfeld at alan.schoenfeld@wilmerhale.com

Paper copies will be served by Cockle Legal Briefs upon:
Counsel of Record for Petitioners:
Alan Evan Schoenfeld
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294

/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

2311 Douglas Street
Omaha, Nebraska 68102- 1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-283 I
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-1218
DEMETRIUS WILLIAM EDWARDS AND BRYANT ROYSTER,
PETITIONERS
v.
SHERRY BURT, WARDEN AND KEVIN LINDSEY, WARDEN
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of June, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the ab.o ve entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:
SEE ATTACHED
To be filed for:
Dana Nessel
Michigan Attorney General

FadwaA. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF l @michigan.gov
(5 l 7) 335-7628
Jared D. Schultz
Assistant Attorney General
Criminal Trials and Appeals
Division
Attorneys for Respondents

Subscribed and sworn to before me this 2nd day of June, 2021.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

NERAl NOTARY-State of NelJraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Affiant

40914

Alan Evan Schoenfeld
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

